Case No.

IN THE SUPREME COURT OF THE UNITED STATES

MARY JO WEIDRICK, Petitioner/Plaintiff
v.
PRESIDENT DONALD J. TRUMP, UNITED STATES
ATTORNEY GENERAL WILLIAM P. BARR; UNITED STATES CONGRESS
et al, Respondents/Defendants

I, Mary Jo Weidrick, hereby certify that on August 14, 2020,1 mailed the
foregoing documents, Individual Emergency Application to Justice Thomas; Petition
for Certiorari Before Judgment to the U.S. Court of Appeals for the Second Circuit;
Motion for Leave to File Complaint and Application for Indigent Status to: the
Clerk for the Supreme Court of the United States, 1 First Street, NE, Washington
DC 20543. The following Respondents/Defendants were also mailed a copy of same:
Benjamin H. Torrance, Assistant U.S. Attorney
United States Attorney’s Office for the SDNY
86 Chambers Street
New York, NY 10007

Solicitor General of the United
States
(
Department of Justice
950 Pennsylvania Avenue, N®$ Room 5616
Washington, DC 20530-0001

CuP

7

n

